<html>
<title> - IMMIGRATION AND THE SMALL BUSINESS WORKFORCE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


              IMMIGRATION AND THE SMALL BUSINESS WORKFORCE

=======================================================================

                                HEARING

                              BEFORE THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                              MAY 22, 2019

                               __________

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                              
                               

            Small Business Committee Document Number 116-023
             Available via the GPO Website: www.govinfo.gov
                   
                   
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-430                      WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6e1e012e0d1b1d1a060b021e400d010340">[email&#160;protected]</a>                               
                   
                  
                   
                   
                   HOUSE COMMITTEE ON SMALL BUSINESS

                 NYDIA VELAZQUEZ, New York, Chairwoman
                         ABBY FINKENAUER, Iowa
                          JARED GOLDEN, Maine
                          ANDY KIM, New Jersey
                          JASON CROW, Colorado
                         SHARICE DAVIDS, Kansas
                          JUDY CHU, California
                           MARC VEASEY, Texas
                       DWIGHT EVANS, Pennsylvania
                        BRAD SCHNEIDER, Illinois
                      ADRIANO ESPAILLAT, New York
                       ANTONIO DELGADO, New York
                     CHRISSY HOULAHAN, Pennsylvania
                         ANGIE CRAIG, Minnesota
                   STEVE CHABOT, Ohio, Ranking Member
   AUMUA AMATA COLEMAN RADEWAGEN, American Samoa, Vice Ranking Member
                        TRENT KELLY, Mississippi
                          TROY BALDERSON, Ohio
                          KEVIN HERN, Oklahoma
                        JIM HAGEDORN, Minnesota
                        PETE STAUBER, Minnesota
                        TIM BURCHETT, Tennessee
                          ROSS SPANO, Florida
                        JOHN JOYCE, Pennsylvania

                Adam Minehardt, Majority Staff Director
     Melissa Jung, Majority Deputy Staff Director and Chief Counsel
                   Kevin Fitzpatrick, Staff Director
                            
                            
                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Nydia Velazquez.............................................     1
Hon. Troy Balderson..............................................     2
Hon. Steve Chabot................................................     4

                               WITNESSES

Mr. Dan Wallace, Director of Special Projects, New American 
  Economy, New York, NY..........................................     5
Mr. Derek Shoare, Senior Vice President, Challenger Sports, 
  Lenexa, KS.....................................................     7
Mr. Nick Sabino, President, Deer Park Roofing, Inc., Cincinnati, 
  OH.............................................................     8
Mr. Daniel Griswold, Senior Research Fellow, Co-Director, Trade 
  and Immigration Project, Mercatus Center at George Mason 
  University, Arlington, VA......................................    10

                                APPENDIX

Prepared Statements:
    Mr. Dan Wallace, Director of Special Projects, New American 
      Economy, New York, NY......................................    33
    Mr. Derek Shoare, Senior Vice President, Challenger Sports, 
      Lenexa, KS.................................................    37
    Mr. Nick Sabino, President, Deer Park Roofing, Inc., 
      Cincinnati, OH.............................................    40
    Mr. Daniel Griswold, Senior Research Fellow, Co-Director, 
      Trade and Immigration Project, Mercatus Center at George 
      Mason University, Arlington, VA............................    45
Questions for the Record:
    None.
Answers for the Record:
    None.
Additional Material for the Record:
    U.S. Chamber of Commerce Small Business Council..............    50

 
              IMMIGRATION AND THE SMALL BUSINESS WORKFORCE

                              ----------                              


                        WEDNESDAY, MAY 22, 2019

                  House of Representatives,
               Committee on Small Business,
                                                    Washington, DC.
    The committee met, pursuant to call, at 11:32 a.m., in Room 
2360, Rayburn House Office Building. Hon. Nydia Velazquez 
[chairwoman of the Committee] presiding.
    Present: Representatives Velazquez, Finkenauer, Kim, Crow, 
Davids, Chu, Veasey, Evans, Schneider, Espaillat, Delgado, 
Houlahan, Craig, Chabot, Balderson, Hern, Hagedorn, Stauber, 
Burchett, and Spano.
    Chairwoman VELAZQUEZ. Good morning, everyone. The committee 
will come to order. We are just waiting for the Ranking Member 
who has an amendment on Judiciary, and as soon as he finishes 
with that amendment he will be joining us.
    I thank everyone for joining us this morning, and I want to 
especially thank the witnesses for being here today.
    Today's hearing on immigration and the small business 
workforce is a reminder that the immigrant story is the 
American story, and it is a story that has fueled 
entrepreneurship in this country for centuries. Without the 
arrival of countless waves of immigrants throughout American 
history, our economy would not be nearly as dynamic or as 
advanced as it is today. This is because entrepreneurs have 
come to our shores and our borders from around the globe, all 
with the conviction that America is a land of opportunity, a 
place where if you work hard you can build a better life, not 
just for yourself but for your children, your family, and your 
community.
    Today, when we sit here as members of this committee, we 
cannot forget that immigration and entrepreneurship have long 
stood together as pillars of the American dream. So when we 
consider proposals to reform our broken immigration system, let 
us not overlook the unique challenges facing our labor market, 
and ultimately, the families who dream of working hard to build 
a better life in this country.
    For small businesses, finding and retaining qualified and 
skilled workers often presents its own set of challenges, and 
we see this across many different sectors of the economy, such 
as agriculture, construction, and health care. Without a large 
human resources department, small firms are put at a 
disadvantage in the task of finding qualified workers. And 
whether we talk about the highly-skilled labor market or 
planning for temporary seasonal labor for the summer, small 
employers are seeing firsthand the challenges of our evolving 
workforce. Often, there just aren't enough domestic workers to 
meet the needs of small companies, and therefore, are forced to 
rely on foreign-born workers to fill permanent and temporary 
jobs no matter the skill level.
    Small firms who are intimately tied to their local 
economies simply cannot find the workers with the technical 
expertise to meet their needs. Ultimately, when small firms 
cannot hire the workers they need, small businesses cannot 
reach their full potential, and neither can our economy. 
Clearly, the system can, and should, be working better.
    These are all the reasons why we need comprehensive 
immigration reform. For one, small businesses need certainty to 
thrive. Unfortunately, our immigration system does not provide 
the certainty and confidence our small business owners deserve.
    Take the unprecedented backlog at United States Citizenship 
Immigration Services. Last fall, the backlog exceeded 2.3 
million cases with average processing times for petitions 
nearly three times higher in 2018 than in 2014. That is 2.3 
immigration cases ranging from pending green cards to work 
visas that sat unprocessed.
    But these are not simply cases. These are people. People 
who bring fresh ideas and energy. People that are ready, 
willing, and able to come here, work hard, and contribute to 
our economy. And our economy and small business sector 
community are desperate for these workers. The Bureau of Labor 
Statistics projects an additional 11.5 million new jobs will be 
created by 2026 with new opportunities in health care leading 
the way. Yet, during that same timeframe, we will only add 7.9 
million new domestic employees to the workforce. That is 4 
million new job openings we cannot fill.
    This should not be hard. If we cannot come together to 
address this issue through comprehensive and common sense 
immigration reform, our small businesses and economy will 
suffer. For years now, lawmakers on both sides of the aisle 
have struggled to turn comprehensive immigration reform into a 
reality. But the hard truth is that inaction is only 
exacerbating labor shortages on our family farms. Inaction is 
only deepening the lack of workers in key sectors for small 
firms including construction and housing. And inaction is 
deterring talented entrepreneurs with the idea that could even 
one day become the next Google.
    But this does not have to be the case. We are here today to 
discuss steps to change the reality facing too many immigrant 
workers and the small employers who rely on them. It is my hope 
that today's discussion can help identify not only issues of 
concern but serious solutions for small businesses.
    With that, I thank each of the witnesses for joining us 
today, and I look forward to your testimony.
    I would now like to yield to the----
    Mr. BALDERSON. Substitute Ranking Member.
    Chairwoman VELAZQUEZ. Correct. Mr. Balderson, for an 
opening statement.
    Mr. BALDERSON. Thank you, Madam Chair. And thank you for 
the witnesses being here. I will be reading you the opening 
statement from my colleague, Ranking Member Chabot, who is 
stuck doing an amendment, I believe, in his Committee.
    So thank you, Madam Chairwoman, for holding this hearing 
today.
    When we speak to small business owners, both here in D.C., 
and at home in our districts, we hear a similar message. The 
workforce shortage we are currently experiencing is having a 
negative impact on small businesses across the country and 
across industries.
    According to a study conducted by the NFIB, 86 percent of 
employers with job openings reported finding few or no 
qualified applicants for the positions they were seeking. 
Without access to local qualified employees, employers are 
looking to temporary foreign workers to fill the workforce 
gaps.
    I will add one statement from myself to go off Ranking 
Member Chabot's statement here, is that he and I were walking 
down the street this morning and talked about the unemployment 
rate of the State of Ohio is now at 3.3, and how hard it is 
right now to find workers who are unemployed. So that is a good 
issue to have but it is also a negative for not having 
employees. So I was going to say in my statement, Ranking 
Member Chabot and I, had that discussion walking down the 
street this morning.
    For example, employers in STEM fields in need to highly-
skilled workers in specialty occupations often petition for H-
1B visas of the 40,000 companies that submitted H-1B visa 
applications in fiscal year 2016, the top 20 sponsors accounted 
for 37 percent of all visa approvals.
    Given this trend, how can small businesses manage to secure 
visas when they have to compete against industry giants and 
Fortune 500 companies? This also affects employers in seasonal 
labor-intensive industries who rely on H-2B visas to ensure 
that they have the workforce needed to meet their industry's 
seasonal demands. H-2B employers are often bogged down in the 
bureaucratic red tape and struggle to comply with conflicting 
guidance from DOL and DHS.
    In the 114th and 115th Congress, I introduced the 
Strengthen Employment and Seasonal Opportunities Now, otherwise 
known as the SEASON Act, to provide greater marketplace 
certainty and to make it easier for employers to meet the 
demands of their respective industries and our growing economy. 
I am confident that reforms to streamline and simplify 
temporary employment visa programs can alleviate some of the 
strains caused by the workforce shortages.
    Today, we will hear about the economic impact of temporary 
foreign workers on small businesses and the U.S. economy. As we 
discuss these issues, I will be focused on one question: are 
these visa programs a viable option for resource-strapped small 
businesses?
    Thank you to our witnesses for participating today. I yield 
back, Madam Chair.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    If committee members have an opening statement, we will ask 
that they be submitted for the record.
    I would like to take a minute to explain the timing rules. 
Each witness gets 5 minutes to testify and the members get 5 
minutes for questioning. There is a lighting system to assist 
you. The green light will be on when you begin, and the yellow 
light comes on when you have 1 minute remaining. The red light 
comes on when you are out of time, and we ask that you stay 
within the timeframe to the best of your ability.
    I would now like to introduce our witnesses.
    Our first witness is Mr. Dan Wallace. Mr. Wallace is the 
Director of Special Projects at New American Economy, a 
bipartisan coalition that advocates for smart federal, state, 
and local immigration policies that will create jobs for all 
Americans. Prior to joining New American Economy, he served as 
a Policy Advisor on Immigration in the New York City Mayor's 
office. Mr. Wallace holds a master of education in community 
development and a bachelor of arts in political science from 
Vanderbilt University in Nashville, Tennessee. Welcome, sir.
    I would like now to yield to Ms. Sharice Davids from 
Kansas, to introduce our second witness.
    Ms. DAVIDS. Thank you, Madam Chair.
    Our second witness today is Mr. Derek Shoare. Mr. Shoare is 
a native of Wolverhampton, England, and graduated from St. 
Mary's College in London with a bachelor's degree in physical 
education. He spent 7 years teaching secondary students in and 
around London before immigrating with his wife and 1-year-old 
daughter to the United States in 1987. They began their lives 
in the U.S. and Connecticut, working for what at the time was 
the largest soccer educational company in the country where 
Derek was the head of sales and recruitment. Ten years later, 
Mr. Shoare and his family, which had grown at that time to 
include a son, relocated to the Kansas City area, which I was 
excited about, to start Challenger Sports with a mission to 
spread the love of the game of soccer to the U.S. and put 
smiles on children's faces. He spent the last 22 years growing 
the company from a few camps in the Midwest to a total soccer 
company, providing day and overnight camps, seasonal training 
programs, tournament management, oversee soccer tours, coach 
education, and uniforms and equipment. Mr. Shoare has also been 
involved in coaching soccer since his stint at St. Mary's where 
he was both the team captain and the coach, leading his team to 
two consecutive national finals. Congratulations. Mr. Shoare 
has 28 years of experience dealing with immigration and work 
visas for his previous employer and now for Challenger Sports. 
He is one of the key people involved with the H-2B program at 
Challenger Sports since the company began using the visas in 
2002. He and his wife Linda officially became U.S. citizens in 
June of 2013.
    Thank you for being here, Mr. Shoare.
    I yield black.
    Chairwoman VELAZQUEZ. Thank you, Ms. Davids.
    And now I recognize the Ranking Member, Mr. Chabot, to 
introduce the last two witnesses.
    Mr. CHABOT. Thank you very much. I appreciate that.
    I would first like to introduce Nick Sabino, who is the 
president and founder of Deer Park Roofing, Inc., which 
provides residential and commercial roofing services. Deer Park 
Roofing has offices in both Cincinnati, Ohio, and Florence, 
Kentucky. Nick currently serves as Chairman of the Board-Elect 
of the National Roof Contractors' Association and is slated to 
serve as NRCA Chairman of the Board in 2019 and 2020. He earned 
a bachelor's of science degree in mathematics from Xavier 
University in Cincinnati, Ohio, and we welcome you here today.
    And I would also like to introduce Mr. Daniel Griswold. He 
is a nationally recognized and highly public expert on trade 
and immigration policy. Mr. Griswold is a senior research 
fellow at the--is it Mercatus? Mercatus Center at George Mason 
University and co-director of its Trade and Immigration 
Project. He earned a bachelor's degree in journalism from the 
University of Wisconsin at Madison, and a masters in the 
politics of world economy from the London School of Economics 
and Political Science. So we welcome you here as well.
    And I want to apologize for being a little bit late. I had 
an amendment over in Judiciary and it was my amendment so I 
could not leave in the middle of it. So I apologize to 
everybody.
    And thank you, Mr. Balderson, for filling in for me there.
    Chairwoman VELAZQUEZ. Thank you, Mr. Chabot.
    And now, Mr. Wallace, you are recognized for 5 minutes.

 STATEMENTS OF DAN WALLACE, DIRECTOR OF SPECIAL PROJECTS, NEW 
    AMERICAN ECONOMY; DEREK SHOARE, SENIOR VICE PRESIDENT, 
 CHALLENGER SPORTS; NICK SABINO, PRESIDENT, DEER PARK ROOFING, 
  INC., DANIEL GRISWOLD, SENIOR RESEARCH FELLOW, CO-DIRECTOR, 
TRADE AND IMMIGRATION PROJECT, MERCATUS CENTER AT GEORGE MASON 
                           UNIVERSITY

                   STATEMENTS OF DAN WALLACE

    Mr. WALLACE. Thank you, Chairwoman Velazquez, Ranking 
Member Chabot, and members of the Committee, thank you for the 
opportunity to appear before you today and provide testimony on 
behalf of New American Economy (NAE). NAE is a bipartisan 
coalition of more than 500 mayors and business leaders from all 
50 states and every sector of the economy united in 
demonstrating the importance of immigration to America's 
economic growth and advocating for smart Federal, state, and 
local policies that will create jobs for all Americans.
    In our capacity as a research organization, NAE analyzes 
data from the American Community Survey (ACS) and other 
publicly-available data sources to understand national economic 
and workforce challenges and opportunities, as well as the role 
of immigrants in industries and occupations across the country. 
As this body of research continues to grow, one thing remains 
abundantly clear: immigration is one of America's greatest 
competitive advantages, helping to keep our workforce younger 
and more adaptive to the changing needs of U.S. businesses in 
the 21st century economy.
    Immigrants not only help fill shortages in the labor 
market, they also create jobs for Americans at every skill 
level. Although they represent just 13.7 percent of the U.S. 
population, immigrants account for more than 20 percent of all 
entrepreneurs. And they start more than one-quarter of all 
businesses in seven of the eight highest growth sectors, 
including construction, transportation, and utilities, and 
health care.
    From Silicon Valley to Main Street, immigrant business 
owners are creating jobs and adding value to our economy. 
Between 2006 and 2012, 43.9 percent of high-tech Silicon Valley 
firms were founded by immigrants. Immigrants also start 28 
percent of Main Street businesses like restaurants, grocery 
stores, and retail shops that make local communities more 
vibrant.
    Immigrants also play an indispensable role in the American 
workforce for large and small businesses alike, and as the U.S. 
economy continues to grow, employers are beginning to sound the 
alarm. In many industries, there are not enough workers to get 
the job done.
    In 2018, nearly half of U.S. employers reported that they 
were struggling to find enough workers, up from 14 percent at 
the height of the recession in 2010. Among many reasons, the 
primary challenge for the employers surveyed was simply a lack 
of applicants. This is true across a variety of key sectors.
    Between 2002 and 2014, the number of field and crop workers 
in America declined by 146,000, causing major labor shortages 
on U.S. farms. A rapidly aging U.S. population is also 
straining our healthcare workforce. 62.8 percent of home health 
aide administrators cited `` caregiver shortages'' as one of 
the top three threats facing their business in 2015. There are 
structural reasons for this. As more young people are going on 
to college, the size of the U.S.-born population with a high 
school degree or less has decreased. Among workers ages 25-44, 
there was a decline of 12.3 million people with less than a 
high school degree between 1990 and 2010, but the number of 
jobs for workers with that education level held steady. Thus, 
real and persistent gaps in the American workforce have opened 
up. There will be an estimated shortage of 3.6 million workers 
in labor-intensive occupations by 2024.
    Immigration is not a silver bullet that can fix all of 
these challenges, but it should be part of the solution. First, 
the foreign-born are more likely than the U.S.-born to fall 
within the prime working-age range.
    Second, immigrants' education and skill levels are 
complementary to the U.S.-born. They are more likely to hold 
graduate degrees, but also more likely to have less than a high 
school degree, allowing them to help fill jobs in labor-
intensive and service industries, like the tourism and 
hospitality sector, in which 84 percent of all jobs require 
less than a college degree. In construction, foreign-born 
workers frequently take on the most physically demanding roles, 
while U.S.-born workers prefer positions that require more 
English-language skills or experience in management or customer 
service. Finally, immigrants are also more likely to work 
unusual hours and be willing to relocate for jobs than the 
U.S.-born.
    Especially in industries like tourism and hospitality that 
rely heavily on seasonal labor, immigration is a lifeline that 
supports small businesses and the American workers they employ. 
In fact, one-third of businesses in this sector report that 
they would be forced to reduce their operations or close 
altogether if they could not hire workers through temporary 
visa programs.
    Threats to programs that provide opportunities for 
immigrants with work authorization to remain in the U.S., such 
as DACA and TPS, will only exacerbate current labor shortages 
and make it even more difficult for small businesses to grow. 
Legislation introduced in this Congress would protect DACA and 
TPS-holders and give American business owners more certainty 
about their employees' futures. The bipartisan Fairness for 
High School Immigrants Act would eliminate arbitrary country 
caps that cause lengthy backlogs in the employment-based 
immigration system.
    Expanding avenues for immigrants with education and skills 
backgrounds that complement American workers would help ease 
the acute shortages felt in a variety of sectors. Such reforms 
should be part of a comprehensive overhaul of America's 
outdated immigration system. We must ensure that our laws 
reflect the needs of our economy and keep with our tradition as 
a Nation that welcomes hard-working immigrants from around the 
world. Thank you.
    Chairwoman VELAZQUEZ. Thank you, Mr. Wallace.
    Mr. Shoare, you are recognized for 5 minutes.

                   STATEMENT OF DEREK SHOARE

    Mr. SHOARE. Dear Chairwoman Velazquez, Ranking Member 
Chabot and members of the Committee, thanks for allowing me to 
speak to you today about Challenger Sports, which I helped 
found 22 years ago.
    We are based in Lenexa, Kansas, in Congresswoman Davids 
district, and we are a multifaceted sports company. Our mission 
is simply to put smiles on kids' faces through all of the 
services we try and provide. Today, my focus is on our spring 
programs and the fall programs where we use the H-2B program. 
We have been using this program for 15 years. We have grown it 
due to the needs of the clients we serve to approximately $10 
million. This year, we are needing 300 workers across 27 
locations across the country. This training program is the most 
important service we provide to our clients. They run their 
programs, they set them up, and then we provide them coaches to 
deliver the mission that they provide. Unfortunately, when we 
cannot provide the most important service to them, they now 
turn around to us and say we are not running your tournaments, 
we are not running your camps, we are not buying your apparel, 
and we will not be going on your tours. A pretty devastating 
effect.
    We employ 160 full-time workers. In the last year and a 
half, we reduced our full-time workforce by over 10 percent. 
You may say recruit U.S. coaches. That will solve your problem. 
We go way above and beyond what the DOL asks. We advertise in 
all the cities that we are looking for on platforms like 
Indeed.com. We deal with the largest soccer membership in the 
country, over 18,000 coaches, and due to our relationship, we 
send emails to every single member of that group to ask, come 
and work for Challenger Sports.
    We pay significantly above what the prevailing wage is 
advertised by the DOL. We just cannot find U.S. workers. We 
believe it is due to the unemployment presently now, but also, 
these positions are multifaceted and often it is a split day. 
They work in the morning. Then they will work in the evening. 
And they do weekend work as well. Maybe not very attractive.
    So we go to the H-2B program. This year, we ran 27 
locations. Before April 1st start date, we got approved 8 of 
our 12. We then went ahead, called all the clients in the other 
four areas and told them we will not be delivering your coaches 
in approximately 6 weeks' time. The remaining 15 locations were 
after April 1 start dates. We received approval on five of 
those 15 on May 15. We received 45 percent of the required 
need.
    When we apply for those April 1st visas, we applied at 
12:01 January 1st. Unfortunately, the DOL website crashed. We 
applied exactly at the same time as every other company, and 
there were 95,000 visa applications for 33,000 visas.
    The reputation of our company after being a leader in the 
industry is becoming extremely tarnished. The clients do not 
trust us. The workers we offer work do not trust us anymore. 
And this year we estimate there will be 80,000 youngsters not 
being coached by us.
    Congress needs to act now. We cannot go forward promising 
our clients and our workers something we cannot guarantee. It 
is embarrassing. It is unprofessional.
    With the economy rebound and more need for seasonal 
workers, the current regulations do not allow companies like us 
to fulfill our need.
    Congress must act now to raise the cap to a level that 
helps businesses like ours plan and fulfill the needs of the 
youth of today. If this does not occur, we have a strategic 
meeting in 4 weeks. We certainly do not expect an answer in 4 
weeks but we are already looking at downsizing significantly 
the company that we have grown.
    I appreciate your time and appreciate your consideration.
    Chairwoman VELAZQUEZ. Thank you, Mr. Shoare.
    Mr. Sabino, you are recognized for 5 minutes.

                    STATEMENT OF NICK SABINO

    Mr. SABINO. Madam Chair Velazquez, Ranking Member Chabot 
and members of the Committee, my name is Nick Sabino and I am 
president of Deer Park Roofing in Cincinnati, Ohio. I now serve 
as Chairman of the Board-Elect of the National Roofing 
Contractors Association and am testifying on behalf of NRCA 
today. I greatly appreciate the opportunity to discuss the need 
for immigration reform that meets the workforce needs of small 
businesses and the consumers we serve.
    Deer Park Roofing was founded in 1996, and we currently 
employ 125 professionals. Our goal is to grow our business and 
meet the needs of our customers, but the biggest obstacle to 
growth is the inability to find qualified applicants.
    We currently recruited several new employees through our 
career and technical outreach program, but still need 10 to 15 
more to keep up with our record backlog of work. We have worked 
hard to develop innovative solutions to the challenges of 
recruiting new employees. We created an employee development 
program, which focuses on skills assessments, mentoring, 
promotion from within, and providing career paths for all 
associates. We now work with three technical schools, three 
high schools, and seven recruiting partners.
    Chronic and widespread shortages of qualified workers are 
the most significant limitation that my company and other 
roofing contractors face to grow our businesses.
    According to the Bureau of Labor Statistics, job openings 
in construction increased to 360,000 in March, the highest 
level ever recorded. NRCA estimates workforce shortages cause 
an estimated $7.5 to $15 billion in annual lost economic 
activity. This problem will become even more severe in the 
future due to an aging workforce and other demographic trends.
    The large number of job openings that we are face has a 
negative impact on production and wages across our supply 
chain. Manufacturing and distribution were basically flat in 
2018, primarily due to the lack of workforce. We are being 
forced to turn down work, which is causing slowdowns in both 
residential and commercial construction.
    To address this situation, NRCA is pursuing a two-track 
strategy. First, expanding and improving career and technical 
educational opportunities, and second, supporting immigration 
reform that meets workforce needs.
    Regarding the first strategy, NRCA has developed 
ProCertification, a comprehensive program that aims to promote 
professionalism and expand career paths for new and existing 
workers. We believe the success of ProCertification will help 
attract more Americans to a career in roofing.
    But no matter how successful this effort is, we know it 
will not be enough to fully address our workforce needs given 
the demographics our country faces. This is why NRCA supports 
immigration reform that addresses the workforce needs of small 
businesses like Deer Park Roofing.
    I will outline a few steps Congress can make to meet this 
goal.
    NRCA supports the workforce for the Expanding Economy Act, 
H.R. 1740, legislation designed to meet workforce needs in 
roofing and other industries that require critical skilled 
workers. It would establish a two-track system that matches 
willing employers with willing temporary workers and provide 
more visas in times of economic strength and less during 
downturns. It will ensure employers undertake vigorous 
recruitment to hire U.S. workers first, while also enabling job 
creators to obtain the workers needed to meet consumer demands 
and grow their businesses. NRCA believes H.R. 1740 is vital to 
the future workforce needs of the roofing industry and urges 
members to co-sponsor this innovative legislation. NRCA also 
urges Congress to provide a permanent solution for employees 
now working under temporary protected status and individuals 
who came to the U.S. as minor children and are now 
undocumented, many of whom are in the DACA program.
    I especially want to thank Chair Velazquez for her 
leadership to address the TPS issue through the Dream and 
Promise Act (H.R. 6). My written statement contains more 
details on why the need for TPS reform is important to the 
roofing industry and many hardworking individuals.
    To conclude, workforce shortages are the single biggest 
challenge facing the roofing industry today. NRCA urges 
lawmakers to work on a bipartisan basis in support of reforms 
to our immigration system that address both the workforce and 
security needs of the American people.
    Thank you for the opportunity.
    Chairwoman VELAZQUEZ. Thank you, Mr. Sabino.
    Mr. Griswold, you are now recognized for 5 minutes.

                  STATEMENT OF DANIEL GRISWOLD

    Mr. GRISWOLD. Thank you, Chairwoman Velazquez, Ranking 
Member Chabot, and members of the Committee. Thank you for 
holding this hearing today on the very urgent need to reform 
the U.S. visa system to meet our needs in the 21st century.
    High-skilled immigration is a fundamental driver of wealth 
and job creation in the United States. The H-1B visa has been 
an integral part of a U.S. immigration system that for all its 
shortcomings has been the on ramp for immigrants to become 
permanent contributors to American society.
    H-1B immigrants are more likely than native-born workers to 
file for patentable technologies. Immigrants constitute 18 
percent of the adult workforce and yet they account for 28 
percent of the high-quality patents that are filed each year--
patents that raise the productivity and wages of native-born 
Americans.
    Attracting skilled foreign-born workers is especially 
important for America's healthcare industry. One in four 
doctors in America today is foreign-born. That ratio is higher 
in rural areas. With baby boomers like me retiring in large 
numbers, our Nation is going to need something like 90,000 new 
doctors between now and 2025. Without adequate doctors and 
nurses, Americans are going to face longer waiting lines and 
inferior service for health care.
    And yet, our H-1B visa system, only 4 percent of the visas 
go to workers in the medicine and health field.
    Immigration is an important issue for small business, as we 
have just heard this morning. Small business owners face the 
same challenges as employers in all your districts in finding 
workers under these tight labor conditions. Immigrants play a 
key role in meeting the workforce needs in such important small 
business sectors as hotels and restaurants, construction, 
landscaping, retail and services, not to mention family farms. 
Yet small enterprises typically lack the expertise they need to 
navigate the complexities of the immigration system.
    The immigration system has become noticeably more 
restrictive in recent years. Approval rates for H-1B visas 
awarded in the lottery have dropped significantly and as a 
result, applications for H-1B visas have been trending 
downward. Meanwhile, the existing cap of 65,000 regular H-1B 
visas is the same as it was in 1990 when Congress established 
the program. The number of employment-based green cards has 
been frozen since 1990 as well at 140,000. That is despite the 
growth of the U.S. labor force, and the rising growth of the 
information technology economy.
    Since 1990, our economy has added 38 million additional new 
jobs. The number of jobs in professional, scientific, and 
technical services has more than doubled since then to 9.4 
million. The number of jobs in the healthcare field--hospitals, 
ambulatory care--has almost doubled to 12.9 million since 1990. 
Yet, the number of H-1B visas and employment-based green cards 
is still frozen where it was when Congress set it in 1990.
    Let me suggest three important reforms today. One, the H-1B 
cap should be raised to meet the demands of the U.S. labor 
market. The number of regular H-1B visas should, at a minimum, 
be doubled to 130,000. That would meet the growth in the labor 
force of those sectors that are most in need of high-skilled 
labor. A tripling of the number of visas would be even better, 
to 195,000. That would meet the amount of revealed demand each 
year. You would avoid the lottery allotment where small 
business often comes out on the short end of getting those 
visas. A higher cap should contain an annual escalator tied to 
the growth of the high-skilled labor force. And the cap should 
be repealed all together for the healthcare sector as it is in 
the university and nonprofit sector already.
    Two, the number of employment-based green cards should be 
increased. The cap of 140,00 should be at least doubled to 
reflect the growth of the labor force that is most in need of 
high-skilled workers. On top of that, the spouses and minor 
children of the primary green card worker should be exempt from 
the cap.
    And finally, the per-country quotas on employment-based 
green cards should be repealed. The quotas discriminate against 
immigrants based solely on their place of birth. They deny 
legal permanent resident status to well-qualified candidates 
who have already proven their value to their employers, the 
U.S. economy, and society.
    In closing, America is competing for the best talent in the 
world. And without reforms, we are increasingly in danger of 
losing that competition. Thank you.
    Chairwoman VELAZQUEZ. Thank you, Mr. Griswold.
    And now I recognize myself for 5 minutes.
    Let me take this opportunity to thank all of you for being 
here and for making sure that when we debate immigration, that 
people see more than just the border issue and look at this in 
terms of an economic issue, and that is exactly what we are 
doing here today.
    Mr. Wallace, it is often said that low-skilled immigrants 
put downward pressure on wages, thereby hurting American 
workers. However, according to the latest figures, we see that 
these low-skilled workers are in higher demand than ever, and 
in some cases driving up wages. Is there space in the economy 
to both bring in low-skilled workers and raise wages for blue 
collar Americans to fill these open positions?
    Mr. WALLACE. Yes, I believe there is. And I have seen 
additional research showing that looking in metropolitan areas, 
when the share of less educated immigrants in a metropolitan 
area raises by 10 percent, there is a growth in the number of 
new businesses established in those areas of more than 2 
percent, including more than 2 percent for small business 
establishments. So actually, growth in this population spurs 
growth in the business sector, which ultimately creates jobs 
for more Americans. There is also, I think, an understanding 
that businesses that are not able to find workers to fill 
certain roles may be left with the only choice to them is to 
take their businesses offshore. And so certainly having access 
to a workforce, whether that includes U.S.-born or immigrants, 
would allow those companies to remain in the U.S. and to employ 
more Americans here.
    Chairwoman VELAZQUEZ. Thank you.
    Mr. Sabino, the roofing industry is one of the hardest 
industries to work in and has an ongoing shortage of workers 
which you discuss. You mentioned the challenges the industry is 
having finding younger workers to join the industry. Without 
the use of a temporary visa program, would your company or 
industry be able to meet its workforce needs?
    Mr. SABINO. No, we would not. And I would say that we have 
a comprehensive career and technical education outreach. And 
when we are in these schools, we have three full-time employees 
dedicated to these types of outreach programs. We have a 
training manager who on-boards employees. Roofing industry 
safety is of critical importance. So somebody cannot just get 
on a roof on day one. They have to go through training. We have 
to teach them manufacturers' details. We have an administrator, 
we have an H.R. director. So a staff of three with all these 
recruiting partners. We have partnered with construction 
management schools. But when we are in the career and technical 
education section and there are 40 students in there, 20 of 
these students are going to join the trades.
    Chairwoman VELAZQUEZ. So let me ask----
    Mr. SABINO. Sorry.
    Chairwoman VELAZQUEZ. I am sorry. Please finish.
    Mr. SABINO. I am getting to my point here. We might get a 
piece of that pie that is 10 percent of those individuals. So 
we are going to get two out of that recruiting partner. One of 
those employees is going to be with us after 90 days. We need 
10 to 15 people. When we did our budget this year, we 
understand how many people we need. We are doing everything we 
can, and there is a positive return on investment there, but we 
cannot get to that number without----
    Chairwoman VELAZQUEZ. Has the industry tried raising wages 
or increasing the benefits you provide to attract younger 
workers?
    Mr. SABINO. Absolutely. Absolutely. Our wages have gone up 
significantly over the last 3 or 4 years, 40 percent, 50 
percent. The wage range for a roofing installer is anywhere 
from $16 to $35 an hour. I think that that is probably as much 
as one of your staffers is getting paid or more, but we do not 
see a wave of staffers coming to join the roofing industry.
    Chairwoman VELAZQUEZ. Thank you.
    Mr. Shoare, can you please speak to the uncertainty that 
the current employment-based visa creates when annual caps are 
reached or when there are backlogs at the agency, for example?
    Mr. SHOARE. Hopefully, I stressed the frustration. We are 
very fortunate we have a great person working for our company 
that every morning will get up and she will look at the 
announcement from DHS on where they are in the cap. Thus, just 
waiting for that morning to know that this year 10 of our 
applications did not get through. Obviously, this just is 
really very poor for the morale of the whole company because 
our regional salespeople out in the field, they are the people 
who have to get on the telephones and tell these clubs when 
they have got 1,000 youngsters all set up for their program 
they are not going to get any professional coaches. Oh, and by 
the way, we will still be running our camp in the summer where 
we get 100 youngsters.
    Chairwoman VELAZQUEZ. Thank you.
    Mr. SHOARE. So it is just very, very difficult.
    Chairwoman VELAZQUEZ. Thank you, Mr. Shoare.
    My time has expired, and if there is a second round, Mr. 
Griswold, I have questions for you.
    The gentleman from Ohio, Ranking Member Mr. Chabot is 
recognized for 5 minutes.
    Mr. CHABOT. Thank you, Madam Chair.
    And since we did not get to Griswold, I will go there first 
and go down this way with a question I would like to ask 
everybody.
    I have been a supporter, the principal supporter on the 
Republican side on the H-2B program over the years and also in 
support of H-1Bs. And considering an increase, et cetera.
    I have gotten some criticism from folks who will argue a 
couple things. One thing, that if we just paid folks more, you 
know, we have a little under 4 percent which is a lot better 
than it usually is, 4 percent unemployment, so we have been 
heading in the right direction, but there is still almost 4 
percent of the people that are not employed. So their argument 
will go why I should not be supportive of programs like this is 
because (a) all you have to do is pay people more, pay 
Americans more and they will take the work or they get the 
training, et cetera. And (b) they will say that our, for lack 
of a better term, our safety net is too generous. We allow 
people to get unemployment too long or we allow housing, 
whether it is section 8 housing or others or food stamps or 
health care. We have a lot of things that we will give people 
who are not working and so they will take advantage of those 
things and therefore not work. I am not saying that this is the 
case. I am saying that these are arguments that were used 
against those of us that have supported these types of 
programs.
    So what would your response to those things be? Mr. 
Griswold, I will start with you there.
    Mr. GRISWOLD. And Congressman, thanks for those questions 
and for your support over the years for good immigration 
reform.
    Well, first off, wages have been going up. But there is a 
limit. If wages go up too high, the business is not profitable 
and investment goes elsewhere. In some businesses, they have 
the option of offshoring, importing the goods. If wages go up, 
price then also go up and consumers will look elsewhere for 
other products.
    And let me echo what Mr. Wallace said a moment ago. If 
companies can hire more workers, they will hire more middle 
managers and salespeople and others, middle class jobs for 
native-born Americans that complement that. For engineers and 
hi-tech workers, wages have been going up and the unemployment 
rate is not 4 or 3 percent, it is 2 percent. It is rock bottom 
low.
    About the welfare and the safety net, you are a good fiscal 
conservative, and I understand the question. You know, 
immigrants do not qualify for a lot of welfare programs. If you 
become a green card holder, for 5 years you do not qualify for 
those programs. Your relatives have to sign an affidavit that 
they will support you. And we all know from experience, 
immigrants come here to work. They do not come here to go on 
welfare. Recent BLS figures showed that the labor force 
participation rate of male immigrants is 10 percentage points 
higher than native-born Americans. It is 77 percent versus 67 
percent. Immigrants come here to work and to save and to build 
a better life and we should facilitate that. Thank you.
    Mr. CHABOT. Thank you.
    Mr. Sabino?
    Mr. SABINO. Sure. I would agree with what Mr. Griswold 
said, and I would also say that we have been increasing our 
wages across industry wide. One thing that also is increasing 
is our backlog. Our backlog is at record levels and it is 
really unfair to consumers that have to wait. If you call for a 
roof leak, you have to wait 6 weeks. If you want a new roof, 
you are going to wait 12 weeks. So that is increasing.
    We have two employees. Shane Gibson, an employee at Deer 
Park Roofing. He worked 60-plus hours last week. His coworker, 
Bo Huff, he has worked 60-plus hours the last 2 weeks. These 
American workers, the immigrant complements these American 
workers, and these guys would like to spend time with their 
family. They do not want to work 60-plus hours a week. So.
    Mr. CHABOT. Thank you.
    Mr. Shoare?
    Mr. SHOARE. Yeah. We would actually love to pay more money 
to the American worker if we could find them because all the 
extra expense that we actually have bringing in the foreign 
workers is significant. Our challenge is, as I said in the 
statement, our typical work is not the 9:00 to 5:00 day. It 
might be 2 hours in the morning and then 3 hours in the 
evening, and then obviously, the youngsters play weekends and 
it is weekend work. So that is really the biggest challenge 
that we have.
    Mr. CHABOT. Thank you very much.
    Mr. Wallace, I do not have a whole lot of time left, but go 
ahead.
    Mr. WALLACE. Sure, thank you.
    So I think at both ends of the skills spectrum, so in terms 
of STEM companies, often they are looking for people with very 
specific skills. Not being able to find someone for a specific 
role which be already paying quite well can hinder them from 
being able to grow further and hire more American workers here. 
Additionally, sort of in the agriculture sector, we worked with 
a farmer in Texas, in Lubbock, Texas, who had to destroy 10,000 
acres of crops because he could not find enough workers. 
Certainly, I know that he would have paid workers more if he 
could find them. And now, other people in transportation who 
are sort of moving those goods across the country have lost 
their jobs as a result.
    Immigrants are also consumers. So they hold $1.1 trillion 
in consumer spending power, so it is not just that they are 
filling key roles but that they actually can create more jobs 
by spending to support local businesses.
    Mr. CHABOT. Thank you.
    My time is expired, Madam Chair.
    Chairwoman VELAZQUEZ. The gentleman's time has expired.
    Now we recognize the gentleman from Colorado, Mr. Crow, 
Chairman of the Subcommittee on Innovation and Workforce 
Development for 5 minutes.
    Mr. CROW. Thank you, Madam Chair.
    Mr. Sabino, thank you for being here and sharing about the 
specific issues that the roofing industry faces. In my 
district, Curt and Suzie Boyd own Academy Roofing. I think you 
might know them.
    Mr. SABINO. I do.
    Mr. CROW. And they have shared many of the similar concerns 
that you raised here today. In fact, just last week, Curt went 
to complete an estimate at a condominium community and 
determined the project would cost $500,000 to $750,000. That 
would be business for his company. And sadly, he said, and I 
quote his words, he said, ``It would have been a perfect fit 
for our company and it was absolutely painful to pass on the 
opportunity'' because he just simply did not have the employees 
to complete the job.
    So Academy Roofing has actually recently gone for 85 to 50 
field employees because they have not had any success in 
attracting new employees for all the reasons you described.
    So it is my understanding that the Strengthening Career and 
Technical Education for the 21st Century Act or Perkins, did 
not contain any provisions to train immigrants, and it is 
pretty clear after hearing what you and some of the others have 
said that we are leaving value on the table here. You know, we 
are not growing businesses. We are not contributing and giving 
back to the economies of our communities in the way that we 
can, and that we cannot address our labor shortage without 
immigrants.
    So how could we strengthen Perkins to include training for 
immigrants? And do you see that as a viable solution here?
    Mr. SABINO. Yeah, I do. Curt is a friend of me, so I feel 
his pain. We have similar situations where we are turning down 
work. We are raising prices. There are long wait times for 
roofing services. So what the NRCA has done is created a 
program called ProCertification. And we are working with career 
and technical education now. We have had meetings over the last 
month with leadership of these organizations to get our 
ProCertification program in, to give roofing workers across the 
country a certification, a symbol. We need to start respecting 
ourselves. We need to start respecting the American trade.
    The Career and Technical Act, thank you for everyone that 
supported that. We really appreciate it. I think that what we 
are doing with our ProCertification is really going to make a 
big impact on the individuals, but that would fit perfectly 
into what you are saying.
    Mr. CROW. I would welcome others' thoughts as well.
    Mr. Griswold?
    Mr. GRISWOLD. Not on that particular program. Thanks.
    Mr. CROW. Mr. Shoare?
    Mr. SHOARE. No.
    Mr. CROW. Okay. Mr. Shoare, you mentioned, you talked about 
the challenges of seasonal work. I actually held a roundtable 
just a few weeks ago with a number of farmers, fruit and 
vegetable growers in my district who expressed similar concerns 
and that there are challenges in not only getting the quantity 
of H-2 visas but getting them in the times when you need them. 
And one of the solutions they proposed, and I know that you are 
not in the agriculture industry, but they had proposed moving 
the process from Department of Labor and DHS to USDA. So trying 
to better situate it in a place where they could understand the 
nature of seasonal work.
    Do you think there is a lack of kind of understanding of 
the seasonality and the temporal element of the visa program? 
And if so, would moving the programs to areas that would better 
understand that help? Or do you have any other solutions?
    Mr. SHOARE. Yeah. I think Congress should take the lead in 
this and not DHS. It is quite interesting that the cap for the 
first part of the year, which is October 1, where that starts 
which are mostly the ski companies, there is never a cap issue 
in that. But then April 1st, when obviously there is not--we 
are pretty unusual in this field, but you have got the 
agricultural people. You have got the landscapers. The weather 
is better for the roof people. That cap is obviously met within 
24 hours. So personally, I think it should be Congress's 
decision, and I think they can look at the need and obviously 
this year, to receive 95,000 applications for 33,000 to me is a 
pretty simple solution. That is three times the need of what we 
get. And then when we actually got the additional visas, it 
actually took DHS 11 weeks to give a further 30,000 visas. And 
at that point they limited it to return workers. So companies 
like ours, when we realized there could be a shortage, we used 
our first visas on our more experienced people, and then when 
the cap relief was given we scrambled, and we have managed to 
find 45 other return workers. So it is just not a very good 
understanding of the situation.
    Mr. CROW. Thank you.
    I yield back, Madam Chair.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    The gentleman from Oklahoma, Mr. Hern, Ranking Member of 
the Subcommittee on Economic Growth, Tax, and Capital Access is 
recognized for 5 minutes.
    Mr. HERN. Thank you, Madam Chairwoman, Ranking Member 
Chabot, and our witnesses for being here today to testify on 
immigration and small business workforce.
    As a small business owner and businessman for over 34 
years, I know firsthand how valuable legal immigration 
practices are to our workforce. I feel your pain.
    This includes knowledge about various visa programs like H-
1, H-2 visas. Like several of my colleagues, I fully support 
these programs and think they are a great tool to supplement 
our forces in various industries such as hospitality and 
agricultural industries.
    First question is just simple yes or no. Each of you 
discussed these programs in your testimony and it is something 
I would like to ask you about now. Would each of you support 
legislation which increases the number of H-1, H-2 work visas, 
expands the number of green cards, and lengthens the DACA 
eligibility?
    We will start, Mr. Wallace?
    Mr. WALLACE. I believe so, yes.
    Mr. SHOARE. Yes.
    Mr. SABINO. Yes.
    Mr. GRISWOLD. Yes. To qualify it, as a 501(c)3, we do not 
endorse specific legislation, but those are great ideas.
    Mr. HERN. Okay. So I thank you for all your answers, and I 
find it interesting you say this because this exact proposal 
was included in legislation last Congress. This legislation was 
introduced by former Judiciary Chairman Bob Goodlatte. It was 
known as Goodlatte 1, Goodlatte 2, and we jokingly say 
Goodlatte 3, kind of an amalgamation of all. It was voted on 
last year and many of my colleagues on the other side of the 
aisle had the opportunity to vote on these specific reforms and 
voted against them. It is strange to me that people who claim 
to be so supportive of certain policies but then vote them down 
when presented them in legislation. It is the craziness of this 
place. Unfortunately, it was not strange to my colleagues who 
did this last year.
    I want to ask you another question. Again, being a 
businessperson that has almost 1,000 employees that are kind of 
across all the industries, entry level to executive level, 
about E-Verify, a program that I have always supported and 
wish, you know, I have used it a lot in all my small business 
for a number of years. E-Verify is the very successful program 
which allows enrolled employers to confirm the eligibility of 
their employees who work in the United States, and it has 
helped me to easily verify the identity and employment 
eligibility of new employees. I know it sometimes seems 
contradictory that you would want to do something other than I-
9, but I think you all would agree as people who represent the 
business, who hire the employees, know that I-9s are a fallacy 
if we think we are keeping illegal workers out of the workforce 
in America.
    You do not have to answer that; I know.
    This also helps to ensure that best labor practices are for 
those jobs, and legal worker are usually given better 
conditions than illegal workers. Not by the employer. For the 
most part there are some bad actors, but certainly, how they 
are housed and how they figure out how to stay illegal.
    Would each of you agree that tools like E-Verify can be 
beneficial in ensuring legal employment and the best working 
conditions for Americans?
    What are your thoughts on E-Verify? Mr. Shoare, I will 
start with you.
    Mr. SHOARE. I think it is a great system as long as it does 
not become like many of our systems, it is so clunky to deal 
with that small businesses have to add employers to deal with 
that situation. I agree the I-9 system for us in the next 4 
weeks, we actually bring in J-1 visa people to work on our 
camps and to have our local people fill an I-9 in, forward it 
to our corporate office, have them locked away is a challenge 
to say the least. But what we have to be careful is we do not 
make the new system so clunky that people barely use those as 
well.
    Mr. HERN. Yeah, I will tell you, having used E-Verify for a 
number of years, we need to have either/or. I-9s are a waste of 
time. They do not serve the purpose that was originally 
intended.
    Mr. Sabino?
    Mr. SABINO. Yes. We currently use E-Verify. But it is 
inconsistent. It is not necessarily used across all 
construction industries. So, but we currently use it.
    Mr. HERN. So to your point, it is really a disadvantage for 
somebody who wants to do a better job of understanding who is 
here legally, and those who do not use it may have a propensity 
to have people come to work for them, even though we are all 
required Federally to use I-9, people come to work for them 
that could possibly be not legal in the United States.
    Mr. SABINO. It is not required, so a lot of people do not 
use it. If you are working on a government project it is 
required. So again, it is just inconsistent throughout all 
construction.
    Mr. HERN. So you would advocate for it to be consistent 
across everybody so we have a level playing field?
    Mr. SABINO. Sure.
    Mr. HERN. Okay.
    Let me just conclude here because I do not want to go over 
my time here. I thank you all again for being here. As I said, 
I feel your pain, regardless. You know, no politics are being 
played when you are a small business person. You are trying to 
survive, figure out the nuances. You live on the other side of 
the legislation that comes out of this place, the statehouses. 
It is very, very difficult to create jobs. All you want to do 
is you come up here, tell your story, create jobs, put 
Americans to work, and just live a prosperous life for you and 
your employees.
    So I really appreciate you. I have said this many, many 
times before. I really appreciate the witnesses regardless of 
which side of the aisle they are representing because you tell 
us what really matters in America, that 70 percent of jobs in 
America are created by people like yourselves. I thank you so 
much for what you do.
    I yield back my time.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Ms. Davids, the gentlelady from Kansas, is recognized for 5 
minutes.
    Ms. DAVIDS. Thank you, Madam Chairwoman.
    Well, I am especially excited today to have Mr. Shoare here 
from Challenger Sports, which is a successful small business in 
the Third District in Kansas. Mr. Shoare has spoken to an issue 
that I have heard about from a lot of constituents in Kansas. 
And businesses in my district are definitely suffering due to 
the Department of Homeland Security's slow and inefficient, 
insufficient releases of the H-2B visas which Mr. Shoare 
already touched on a little bit.
    Local economies suffer when small businesses cannot provide 
the goods and services that happen because of these long waits 
and insufficient visa releases. And we need a better, more 
efficient system for admitting temporary, non-U.S. workers to 
combat the shortage that many of the businesses and folk who 
are testifying today have spoken about.
    Mr. Shoare mentioned in his testimony that the portal had 
an issue and actually crashed during the attempt to get his 
visas on January 1st at 12:01, that there was a crash at that 
point. And I feel like that actually highlights this constant 
disruption that business owners are facing, whether it is 
landscaping, roofing, companies like Challenger Sports.
    And so Mr. Shoare, I would love to hear you speak a little 
more as a small business owner who is in Lenexa, Kansas. Can 
you elaborate on, in addition to the crash of this site, some 
of the other challenges that you are facing? I am particularly 
interested in how this business that is in Kansas is impacting 
local economies across the country.
    Mr. SHOARE. Yeah. Obviously, as time goes, the H-2B is an 
interesting beast that we deal with. And we have an incredible 
attorney that works for us. They had 35 of their employees 
sitting in their office at midnight on New Year's Eve. I am not 
sure too many people would have done that. So that they could 
literally press the electronic button to put through all our 
visas. Unfortunately, as time goes on, everybody is doing that 
and just the amount of stuff that went through the system, it 
just could not cope with it. So it literally crashed. It took 
them 7 days to correct that, and then obviously, at that point, 
that is when that day there were 95,000 applications.
    As Congressman Davids said, we work across 27 parts of the 
country. We work in Colorado. We work in Oklahoma. We work in 
Florida. And our impact is really nationwide. We are 
corporately based in Kansas, but then we have satellite offices 
in the other areas. So we believe we are providing great 
services for the whole country as a whole but as we have said, 
it is getting to a point that we are feeling unless we have a 
guarantee this year that we will get the H-2B visas that we 
require, then we will be discussing stopping the program 
totally because it is just harming our reputation 
significantly. And that would greatly affect the company as a 
whole and layoffs would be significant, not just in Kansas but 
across the country.
    Ms. DAVIDS. Thank you.
    And then Mr. Shoare, you made a great point earlier about 
the timing of the caps for the visas and the seasonality of 
that.
    Mr. Sabino, I am curious if you have thoughts about the 
timing of the caps, and even if it were increased to 100,000 H-
2B visas, if they were split evenly, would that cause any 
issues for your company or your type of company?
    Mr. SABINO. So our companies, NRCA companies, our member 
companies, there are a lot of contractors that are currently 
using H-2B visas. My company, we are in Cincinnati and we work 
year-round, so the H-2B is more of a seasonal issue for us. So, 
but H-2B is important for us but it does not meet the workforce 
needs that the cap is so small that the amount of increases for 
H-2B is so minor that it is not making a significant impact and 
benefit to small business.
    Ms. DAVIDS. Thank you.
    I yield back.
    Chairwoman VELAZQUEZ. The gentlelady yields back.
    And now we recognize the gentleman from Minnesota, Mr. 
Hagedorn for 5 minutes.
    Mr. HAGEDORN. Madam Chair, thank you for the opportunity. 
Witnesses, appreciate you being here.
    I would like to first acknowledge a good friend of mine who 
is in the audience, Kirk Garrison, who I grew up with in 
Truman, Minnesota. Kirk is a small businessman. He is a 
teacher, educator, and also a veteran of the Air Force of the 
United States. And he plays trumpet for the Gary Sinise 
Lieutenant Dan Band, and they do wonderful things for our 
troops, raising money and entertaining them. So it is good to 
see you, Kirk. Thanks for that.
    I support a lot of these programs and am supportive of the 
concepts of what you are trying to accomplish. But I think that 
sometimes what gets lost is the problems are exacerbated 
because of bad government policies, mostly at the Federal 
level. You talk about you want to bring in more people on visas 
and that is fine. But we have a problem in our Nation with 
people overstaying their visas. We do not criminalize people 
like they do in almost every other country around the world for 
overstaying visas. And we do not even know who is here years 
later, who is left. And I talked to some people just this 
morning from the Department of Homeland Security and said we 
need to do a better job on that. I know the President has been 
working on that, and I am going to support him in any way 
possible, but I think that would be helpful to gaining support 
for what you are trying to do.
    Also, we have a problem on the border, and there are a lot 
of folks that do not just want temporary people coming here to 
work, they want permanent folks to be recognized to stay in 
America for the rest of their lives. And yet, if you do not 
have a secure border, everybody can keep just running over the 
border or flying into the country and overstaying visas and 
undercutting the programs, the ideas, the concepts that you are 
trying to get forward that could help people. So I do not get 
that too much. We need support for these things across the 
board and across the aisle.
    And lastly I would say it sounds like--and my friend Mr. 
Hern brought up E-Verify. That is not really biometrically 
applied at this time. Employers like you should be able to know 
who you are dealing with, and if it is somebody who is not 
lawfully to be in that job, then you should not be penalized 
for going along with the program when others do not. So that 
needs to be more uniform as well.
    But the President, last week I believe it was, came out 
with a new, an updated program for immigration based on merit. 
And it seems like what he is trying to do would be helpful to 
what your needs are. To have more people coming to America 
legally, and we do that a million times every year. We are the 
most generous country in the world. Come here legally based 
upon merit with skills, speak the language, assimilation, all 
these things that are going to help them be good Americans 
right from the beginning, contribute to our society, sustain 
themselves, not be on social welfare programs down the line.
    Do any of you have any thoughts about the President's 
policy on merit-based immigration?
    Mr. GRISWOLD. Congressman, thanks for that question. I 
think the President's proposal was a step in the right 
direction. We do need more high-skilled workers. I would say 
let us proceed with some caution on the merit-based system. 
Canada and Australia have merit-based systems and they have run 
into some issues where there is a mismatch between who comes in 
and the needs of industry. We have a demand-driven, industry-
driven system where a person's principal merit is that an 
American company wants to hire them and put them to work.
    The other aspect of the President's plan, is that it did 
not really address, the workers that could work for Mr. 
Sabino's company, who may not meet the President's test of 
merit, and yet, they have a lot of merit for small businesses 
trying to expand and meet their customers' needs. So I think 
there is some real caution due in proceeding in that area.
    Mr. HAGEDORN. Yep.
    Mr. SABINO. We appreciate the fact that we are taking steps 
and we are talking about immigration. But the President's plan 
would be exclusive of a typical roofing installer. So it would 
not----
    Mr. HAGEDORN. The President's plan though does not call for 
100 percent merit-based. It just moves it up the ladder to 
about three-quarters. Not excluding people that you are talking 
about.
    Mr. SABINO. It is for highly skilled. My understanding, it 
is a preliminary plan, but my understanding is that it is for 
highly-skilled individuals. We need critical skills. So it 
would not benefit us as currently presented.
    Mr. HAGEDORN. That is not my understanding. But anyway, go 
ahead, sir.
    Mr. SHOARE. Today, that would have no bearing on why I am 
here on the H-2B program, so.
    Mr. HAGEDORN. Okay.
    Mr. WALLACE. In addition to some of the comments that were 
already raised, I would be curious to see more details about 
the proposal. I think there is a lot of evidence that folks who 
arrive without full fluency in English are able to acquire 
English and learn that over time as they are here, but are able 
to work and contribute in the meantime.
    To your earlier points about sort of tracking, I definitely 
think things like an entry/exit system, for example, border 
security, should be part of an overall package like the one 
that was passed back in 2014 through the Senate Comprehensive 
Immigration Reform. The comment I hear most often from 
employers about E-Verify is that, you know, it is no secret 
that there are undocumented workers in our economy. Roughly, a 
third of agricultural workers are undocumented. Without pairing 
that with a way for workers to arrive through a legal process, 
it would not really address the underlying challenges. And in 
addition, sometimes E-Verify may misidentify folks who are U.S. 
citizens as unauthorized to work.
    Mr. HAGEDORN. Well, we should have a legal program to have 
people here fill those jobs. And so I appreciate that. Thank 
you.
    Chairwoman VELAZQUEZ. The gentleman's time has expired.
    We now recognize the gentlelady from California, Ms. Chu, 
Chairwoman of the Subcommittee on Investigation, Oversight, and 
Regulations for 5 minutes.
    Ms. CHU. Mr. Griswold, I was impressed by your knowledge of 
the employment visa system.
    Each year only 140,000 permanent employment-based visas are 
available under the Immigration and Nationality Act. But the 
backlog is enormous. Currently, there are 395,000 individuals 
residing in the U.S. whose applications for a permanent 
employment-based visa has been approved by USCIS but who are 
still waiting for an adjustment of status and there is an 
additional 113,000 individuals outside the U.S. who are waiting 
for a status adjustment. Clearly, something needs to be done to 
clear the backlogs, and even though there is this backlog, the 
visas that are not used are not rolled over into the next year. 
Instead, they are dropped.
    So next month, I plan on reintroducing my Reuniting 
Families Act which has a provision to recapture unused 
employment-based visas from 1992 to 2016, and allows unused 
visas in future years to automatically roll over into the next 
year. And the data shows that this would make 326,000 permanent 
employment-based visas available.
    In your opinion, what impact would this provision have on 
small businesses?
    Mr. GRISWOLD. Thank you, Congresswoman.
    It would be beneficial for small business. They need 
workers just as larger businesses do. Combined with raising the 
number of employment-based visas, I support excluding spouses 
and minor children from the cap. And Congresswoman, we need to 
be able to get rid of these per-country quotas where a lot of 
those backlogs come from. The quotas limits green cards for any 
one country to about 25,000, which is a binding constraint on 
immigrants from Mexico, the Philippines, China, and India. And 
so people are turned away from green cards, not because they 
are not qualified or lack merit but solely on the country that 
they are from. There is majority bipartisan support, there were 
over 300 cosponsors in the House for a bill that would have 
done away with those quotas. All of that, together along with 
that idea you outlined would be a giant step forward.
    Ms. CHU. And I really want to thank you for addressing the 
per-country cap issue. In fact, my Reuniting Families Act would 
raise the per country cap from 7 percent to 20 percent, and I 
think it would help to solve this backlog problem in a very big 
way. So thank you for that.
    Mr. Wallace, I wanted to address the merit-based system. Of 
course, President Trump's system would drastically reduce 
family-based visas in favor of a merit-based program. Right 
now, the visas are 66 percent family-based and 12 percent 
employment-based. But Trump wants to reverse this so that 66 
percent of the visas are merit-based, but merit-based as 
defined by President Trump meaning they would all be highly 
skilled with high education, with high English proficiency and 
have also passed a civics test.
    So first of all, I would like to point out that our current 
family-based visa system, the people that are coming over are 
more highly educated than the average American, and I have also 
observed that those coming from family-based visas create 
significant jobs. Even those who do not have English 
proficiency, I always remember the story of Jerry Yang, who did 
not speak a word of English except for the word ``shoe,'' but 
went on to found Yahoo and countless jobs.
    So I wanted to ask you, you mentioned in your testimony 
that immigrants not only feel shortages in the labor market but 
also create jobs for Americans at every job level. Can you 
expand on the variety of labor needs in this country?
    Mr. WALLACE. So I understand your question is about the 
role of immigrants as entrepreneurs. Yeah? So I mean, if you 
look at the sort of share of the population overall, as I said, 
about 13 percent of the U.S. is foreign-born. Immigrants are 
overrepresented as entrepreneurs, so they are about 20 percent 
of our entrepreneurs. And that is true across all types of 
industries. So in terms of STEM, I think I shared a statistic 
about the fact that close to half of Silicon Valley hi-tech 
firms were founded by immigrants, but also Main Street 
businesses. So if you look at communities across the country, 
if you look at Dayton, Ohio, if you look at Anchorage, Alaska, 
if you look anywhere across the country, immigrants are 
starting grocery stores, restaurants, retail businesses. That 
creates a lot of economic activity and makes those places more 
interesting and more vibrant and grows their economies. And as 
I also said, you know, immigrants are not only coming in as job 
creators and not only as workers but as consumers. And so they 
have a lot of spending power that can contribute to that 
economic growth as well.
    Ms. CHU. Thank you.
    I yield back.
    Chairwoman VELAZQUEZ. The gentlelady yields back.
    And Mr. Stauber from Minnesota, Ranking Member of the 
Subcommittee on Contracting and Infrastructure, is recognized 
for 5 minutes.
    Mr. STAUBER. Thank you very much, Madam Chair. And to 
Ranking Member Chabot, I could not agree with you more on the 
visas, the H-1 and the H-2s.
    So Northern Minnesota, we have a lot of seasonal workers, a 
lot of resorts. If you go to the North Shore of Lake Superior, 
it is extremely vibrant for about 7 months out of the year. And 
I have been told by those small businesses, the owners, of 
which I am also a small business owner in the city of Duluth, 
but they are talking about that seasonal worker, they need that 
workforce. In fact, one resort had talked about they were not 
able to expand because they did not have the workers to support 
the expansion.
    So I would just say, this is more of a comment to the H-2B 
temporary worker visas. I know in our district, and I am 
hearing across the country, that we need more of that, the 
seasonal workers that do a fantastic job not only with our 
farmers on the western edge of the district but our resort 
area, resort owners. And then on North Shore of Lake Superior. 
So am hearing, would it be safe to say, that all four of the 
witnesses today would support the extension of the H-2B visas, 
the allocation, the additional allocation?
    Mr. SHOARE. Yeah, without a doubt that needs to be done. 
But again, this has been talked about for the past 2 years, and 
every year as we go into the preparing phase, which for us the 
preparing phase is September 1st, it is just so difficult to 
plan if Congress does not take hold of the situation and say 
this is what the need is, this is what we will do.
    Mr. STAUBER. So you want certainty from Congress?
    Mr. SHOARE. Yes.
    Mr. GRISWOLD. Congressman, I would suggest a series of 
reforms. Issue more H-2B visas so that we do not have to have 
this ridiculous scrum on the application date and small 
businesses will always come out on the short end of that. 
Secondly, reduce the paperwork, which again puts small 
businesses at a disadvantage. A big company can hire more 
lawyers and people to process it. Congress should look at 
expanding it beyond the seasonality. Some businesses have a 
seasonal nature, but roofing, as we have just heard, that is 
not seasonal in a lot of the country, and so it is a bit of a 
mismatch there. Dairy farmers--I am from the Midwest--Wisconsin 
and Minnesota--that is not a seasonal enterprise, and they 
cannot find the workers they need. So those would be some great 
reforms for small businesses across America.
    Mr. STAUBER. Thank you.
    Mr. Sabino?
    Mr. SABINO. We would obviously like to see more H-2B visas 
issued. However, we would also like to see a more comprehensive 
approach to immigration reform. I mentioned H.R. 1740 earlier. 
We have to address the TPS issue. We have to address DACA. 
There has got to be a broader approach because, you know, one 
of the problems with H-2B visas, roofers tend to migrate within 
the country and that we are not able to do that on an H-2B 
visa. So if somebody owned a roofing company in Minnesota and 
they were going down to Iowa or Nebraska to do some work over 
the wintertime, that H-2B visa is useless for them, so.
    Mr. STAUBER. Mr. Wallace?
    Mr. WALLACE. Yeah. I would just echo the point about DACA 
and TPS in particular, in addition to some of these temporary 
worker programs, that there are more than a million people 
already working at all skill levels, and so obviously, taking 
those folks out of the economy could be disastrous.
    Mr. STAUBER. And Mr. Griswold, you talk about the 
certainty. As a small business owner myself and hearing from 
others, that is what they are looking for from the Federal 
Government, certainty. The uncertainty is the apprehension for 
not hiring or not even going in business, or leaving the 
business altogether. And I think, I really appreciate your 
comments from your experience. It just follows what Ranking 
Member Chabot talked about, the ability to have the discussion 
on allowing these workers to come in legally. I mean, every one 
of you talked about legally, and I think that is what we can 
agree on. And we do have work to do, but I appreciate all your 
comments. Thank you.
    And I yield back, Madam Chair.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    And Mr. Evans from Pennsylvania, Vice Chair of the 
committee, is recognized for 5 minutes.
    Mr. EVANS. Thank you, Madam Chair. Again, appreciate you 
for showing your leadership on this issue, for leading this. 
And then I would like to thank all of the witnesses who are 
presenting to us today.
    An issue that I am very much interested in and we discussed 
it on the Ways and Means Committee, is concern regarding 
workers' protections, which we talk about in the trade 
agreement.
    As you look at ways to improve our Nation's immigration 
system and address labor shortages through these programs, how 
can we incorporate workers' rights and protections in this 
discussion? I am interested in. Through the whole panel we can 
go through.
    Mr. GRISWOLD. Congressman, thank you for that question. I 
am not going to weigh in to the details of that, but I will say 
that I think the best worker protection for immigrant workers 
is being legal and being able to move from one employer to 
another. So if the conditions and the pay are not good, they 
can move to another employer and enjoy that competition. Also, 
I know it is a thorny issue, but finding some way to legalize 
the 10 million here who are undocumented. Two-thirds of them 
have been here for 10 years or more. They are woven into the 
fabric of their workplace and their community. And by becoming 
legal, research shows that their pay goes up, their protections 
in the workplace are enhanced, and that lifts the whole lower 
pay segment of the workforce.
    Mr. SABINO. So when you are talking about worker 
protections, again, I am back to H.R. 1740, there are worker 
protections in the bill itself. I think also one of the things 
in regard to workers' protection is our ProCertification 
program which we are training employees on how to be safe, on 
how to do things properly. So I think the compressive training 
and education that we are doing at the National Roofing 
Contractors Association and the protections in H.R. 1740 would 
address your concerns.
    Mr. SHOARE. I think the present H-2B program has an 
inordinate amount of protection for the worker, and I think the 
DOL managed that well. The unfortunate thing is often it is not 
everybody's situation to pay those workers the way they should 
be paying them. So I think with our company it is almost that 
we are the largest at what we do so we get under the 
microscope. And I think the protection for the H-2B workers we 
bring in is actually very good.
    Mr. WALLACE. And I would just echo Mr. Griswold's comment 
that helping folks and allowing them to legalize their status 
here in the U.S. would provide a number of protections. And 
also to reinforce one of the points I made earlier, which is 
that in terms of U.S.-borne workers, an increase in diversity 
in metropolitan areas is associated with higher wages and more 
job creation both for large and small businesses. So I think we 
need to stop thinking about this as a zero sum game and think 
about the opportunity that is created by an influx of workers 
into a lot of these metro areas.
    Mr. EVANS. I come from the city of Philadelphia, which is 
the home of the leading health facilities, Children's Hospital, 
University of Pennsylvania, Temple Hospital, Einstein, 
Jefferson. Healthcare professionals and the people it serves 
are very important to me.
    The question I want to ask is can you please explain to us 
what do we risk by losing in our healthcare industry if we do 
not find effective ways to address this shortage?
    Mr. GRISWOLD. Yes, Congressman. Immigration is very 
important to the U.S. healthcare sector. I had a minor heart 
procedure a couple of months ago and it just reminded me of the 
diversity of the health care from the nurses to the doctors and 
the staff. And as I mentioned, we have the H-1B program, and we 
have a J-1 visa waiver for doctors. Congress should look to 
expand those programs, maybe do away with the cap for H-1B 
visas in the healthcare sector as we do in my field of 
education and nonprofits. Nursing is an important category. 
Some of the nurses may not qualify under H-1B, and yet they 
have critical skills. So I think Congress should look at all of 
that. We have growing healthcare needs in this country as the 
baby boomers retire. You are exactly right. This is something 
important we need to do to deliver high-quality health care to 
the American people.
    Mr. EVANS. Thank you, Madam Chair. I yield back the balance 
of my time.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    And the gentleman from Illinois, Mr. Schneider, is 
recognized for 5 minutes.
    Mr. SCHNEIDER. Thank you. And I want to actually pick up on 
the comments of my colleague from Pennsylvania on the 
healthcare shortage. We are also seeing a severe shortage of 
physicians. Expected to be as many as 120,000 by the year 2030. 
And I would like to say some of my friends who are doctors are 
saying I am reaching the time in my career where I am ready to 
retire. And as a baby boomer, I say to them, I am reaching the 
point in my life where I am just hitting my stride as a 
patient. You cannot retire. We need to have these doctors. But, 
you know, I live in Chicago. It is one issue. In rural 
communities and other medically underserved areas, this is 
reaching potentially crisis levels.
    And immigration may be an excellent way to find this 
talent, especially because so many of the world's best and 
brightest are coming to our shores, to our schools to get their 
education. But our immigration laws, our outdated laws stifle 
industries like the ones you have been talking about. They 
force us to turn away so many qualified, good people, including 
physicians every year who want to stay in the United States, 
whether it is starting their business or developing their 
health care, their physician's practice.
    Today, I actually reintroduced legislation, the Conrad 
State 30 and Physician Access Act with my colleague from Iowa 
and fellow Committee member, Ms. Finkenauer. The Conrad State 
30 program allows foreign doctors studying in medical schools, 
it grants them a visa if they serve in some of these medically 
underserved areas for at least 3 years. The legislation would 
extend the program and expand the number of physician slots in 
each state. But it would also ensure that these communities 
have access to the qualified, talented workforce that they so 
desperately need.
    So to the panelists here today, I want to thank you for 
sharing your perspective, and I know we have to do so much more 
to develop this, and health care is just a piece of it with the 
baby boomers aging.
    I know that, Mr. Wallace, you mentioned it in your opening 
remarks. Mr. Griswold, you touched on it. I am happy to open it 
up to anyone on the panel if you want to touch on this.
    Mr. WALLACE. I could just add a couple of things. Looking 
at the role of immigrants in some of these occupations, 
actually, if you look at both physicians and surgeons, as well 
as nursing and home health aides, immigrants are twice as 
likely as the U.S.-born to be in those occupations. And that in 
some rural counties across the country there are fewer than 10 
doctors for every 100,000 residents. So it certainly is 
reaching crisis levels.
    Mr. SCHNEIDER. Great. Thank you.
    Mr. Griswold?
    Mr. GRISWOLD. Expanding the Conrad visa waiver, J-1 visa 
waiver is a good approach. Both expanding the number, and I 
understand that has to be re-approved by Congress each year, 
and maybe adding to the certainty by a longer approval period.
    Also, this is where the per-country quotas start to bite. 
You have qualified, for example, Indian doctors who have every 
qualification for a green card to continue to practice medicine 
here and they have to go back solely because they were born in 
India and we have reached the green card cap on that. So doing 
away with the per-country quotas or raising it at least would 
also address critical health care needs.
    Mr. SCHNEIDER. Great.
    Mr. Sabino, did you want to say something?
    Mr. SABINO. Yes, certainly. Obviously, we recognize the 
diversity in the healthcare field. We also should recognize the 
diversity have you had a roof put on or any kind of 
construction projects lately? There is a lot of diversity in 
the roofing industry as well. So we want immigration to be 
inclusive of our industry as well.
    Mr. SCHNEIDER. Well, let me shift gears and touch on that. 
And I appreciate your comment.
    It is not just the roofing industry. Before this hearing I 
was at a meeting, conversation, talking about the work, the 
importance of franchising. But, you know, franchises are a way 
for entrepreneurs to enter into the business world by starting 
a business with the help of a franchisor. Many of these often 
are immigrants as well. So, so many of the fields we have, 
whether it is looking for employees or entrepreneurs starting 
to get the kick start, immigrants are critical to that.
    Mr. Shoare, go on and jump in.
    Mr. SHOARE. I would just like to add, and maybe this is 
just too commonsensical, right now we have an OPT program. We 
also apply for H-1Bs. This year, 200,000 applications for 
85,000 slots, and these people who have been in the United 
States 34 years, got a degree, because they do not get through 
the lottery, now they have on other option apart from going 
back to school and now doing a fake master's degree on their 
second master's degree. So to me, it would be simple to look at 
that situation, and while the cap is such a problem, maybe 
extend that CPT program for a 2-year program so at least they 
have an opportunity.
    Mr. SCHNEIDER. Great. Thank you.
    My time has expired. I yield back.
    Mr. EVANS. I recognize the gentleman who is Chairman of the 
Subcommittee on Economic Growth, Tax, and Capital Access from 
the great state of New Jersey, Mr. Kim.
    Mr. KIM. Thank you. I appreciate it. And thank you to the 
gentleman from Pennsylvania for yielding over to me.
    I just wanted to, first of all, thank the panel for coming 
out and sharing your insights here. I mean, certainly from my 
district's point of view, everything we can do to try to help 
small businesses, you know, fill these critical job needs is so 
important.
    And I wanted to just kind of hone in on the temporary visa 
program, and I will keep this brief. But I am just trying to 
get a sense from my own and just some of the different 
perspectives that are out there, certainly as a district that 
has the Jersey shoreline. You know, I hear about this from some 
of the businesses on that end.
    But Mr. Sabino, you kind of added a different perspective I 
have not heard from before. So I just kind of wanted to ask for 
your insights as someone who is a small business owner of a 
roofing company, some of the concerns that I hear about, 
especially from certain labor groups about the temporary visa 
program is about the downward pressure that it might put on 
wages and working conditions. And this is something that I have 
talked about to some of the businesses in my district and hear 
from them their perspectives. But I just wanted to hear from 
you since this is, you know, your business is a different one 
than the ones I have had a chance to talk to. What is your 
perspective on that? And in particular, on the roofing 
industry, which utilizes a fair and sizable number of temporary 
visas. You know, what are some of the steps that are being 
taken so that we are trying to do what we can to look out for 
American jobs, American workers as well?
    Mr. SABINO. Sure. So when it comes to American workers, 
again, I testified earlier about the complement that immigrants 
do for this. Our pay is based on merit. Can you perform the 
work safely? Can you do it productively? Do you have good 
interactions with the customer? Can you install something in a 
quality manner as a craftsman? So we have merit-based pay 
systems, not pay based on national origin or anything like 
that.
    I will say, American wages, the downward pressure on 
American wages, I hear that a lot, and I just want to comment. 
I had a conversation with our commercial sales manager about 3 
weeks ago. And I talked to him and I said, you cannot sell 
anything. Your entire team, you cannot sell anything for the 
rest of the summer because we are full. And when you talk about 
wages, that is money right out of their pocket. That is sales 
commissions that they are not getting because they are not 
going to sell anything. Our production capacity is full. Also, 
up and down our supply chain, when you talk about American 
wages being affected, American wages are being affected through 
our distributors and our manufacturers who were flat last year. 
The economy is booming. Our backlog is growing. The 
demographics just do not support where American workers are 
going to get this work done.
    So our supply chain, we came to Washington, D.C. in April. 
We came with our Roofing Day in D.C., and we came with one 
voice. Manufacturers, distributors, contractors all speaking 
towards the immigration issue and towards career and technical 
education. So we had over 400 people come to D.C., and the 
entire industry is united around this, but that is what is 
affecting American wages, the inability for us to get the roof 
projects completed.
    Mr. KIM. Well, thank you. Thank you for that perspective.
    I always just want to make sure that when we are having 
these discussions here on the Hill and, you know, as I am 
having these discussions in my own district that we are really 
able to make sure that we are reflecting your voices and your 
perspectives on this going into it. So that was just important 
for me to hear directly from you of just how it has been 
affecting your industry and certainly it will be something that 
I would kind of wrap into some of the other discussions that I 
have been having. So I appreciate that.
    I yield back.
    Mr. EVANS. I thank the gentleman for yielding back.
    And now I go to the Ranking Member of the Subcommittee on 
Innovation, Workforce Development, Ranking Member Balderson 
from Ohio.
    Mr. BALDERSON. Thank you, Chairman Evans. It is good to see 
you in the big chair there. So thank you. We are up here having 
fun, are we not?
    Again, I spoke to all of you earlier before Representative 
Chabot got here and just, you know, I want to express to you, 
thank you all for being here very much. I really appreciate it. 
And I will not repeat it again but I really want to emphasize 
this today and the concern that is out there for workforce 
development. And that is one of the biggest things that I face 
back in the district, and I have a great relationship with 
Chairman Crow. Jason and I are going to work together on this 
Innovation and Workforce Development, and we need your help in 
coming up with some of these solutions. As I said earlier, you 
know, Ohio now has a 3.3 percent unemployment, which is the 
same as the national average here in this country, and that is 
a good problem to have. But we need more workers for jobs to 
get filled.
    So I understand the need for raising the caps on H-1B and 
employment-based green cards, but I think this only addresses 
half of the problem. Mr. Sabino brings up a good point that a 
solution to the labor shortage would ideally be fixed through a 
two-track approach. As Ranking Member of the Innovation and 
Workforce Development Subcommittee, I am also a big supporter 
of career and technical education as it means so much added to 
our domestic workforce.
    So my question for Mr. Griswold and Mr. Sabino is how do we 
here in Congress balance the development and enhancement of 
both our domestic and foreign workforces so that we have 
healthy growth and opportunity in each, rather just than one 
dominating the other?
    Mr. GRISWOLD. Congressman, I think you put your finger on 
exactly the issue Congress should be focusing on not 
restricting immigration but equipping Americans to take full 
advantage of the opportunities being created in our 21st 
century economy. And workforce development and all that.
    I will just echo what has been said here several times. 
Immigrant workers tend to complement American workers. American 
workers have certain native advantages, such as language 
skills. And as immigrants come in, even lower skilled Americans 
have opportunities to move up and be, say, the manager of the 
roofing team or something like that. Studies show that as the 
presence of immigrants rises, Americans are more likely to stay 
in school. You know, just by getting a high school diploma and 
going out in the workforce, you are giving yourself a 35 
percent pay increase from what you would be given going out 
without a high school degree. And immigration helps encourage 
Americans to do that. So that is the right conversation to be 
having. How can we equip ourselves through education? Everybody 
does not need a college degree, but perhaps instead an 
associate degree, technical training, that sort of thing. That 
is exactly what Congress and the Committee should be focusing 
on. Thank you.
    Mr. SABINO. I will say that our native-born population is 
trending away from the trades. It is really sad. Tradesman are 
sometimes treated as second rate individuals. I can promise you 
the people that I go to work with every day, the men and women 
are not second rate citizens. So the more we can do on that 
front is certainly welcome. And we are doing a lot. And we are 
talking with those people. However, the demographics do not 
look good. No matter how hard we try with career and technical 
education, and promoting the trades for American workers, 
still, in this country, American parents are having 1.8 
children per household. We are at a 32-year low birth rate in 
this country. So native-born workers are becoming less and 
less. They are joining our industry less and less. So again, we 
have to look at this as a two-track approach.
    Mr. BALDERSON. Okay. Thank you. I am going to come back on 
you just for a second because you said something that you are 
trying to do some different things. Is there one thing in 
particular that you and your organization and your company that 
are doing to attract? I mean, are you going down to the middle 
school? Are you starting in the high schools? I mean, I will 
give you an example of something that I encountered with a 
gentleman from Medina, Ohio, with manufacturing that actually 
hired a firm to help him think outside the box. But Mr. Sabino, 
what would be a good example of one thing that you do that you 
feel is successful?
    Mr. SABINO. Sure. So we are in all kinds of schools. We are 
in high schools. We are in career and technical schools. We are 
in vocational schools. We are in construction management 
programs. We have three interns right now. Our three interns 
are going to be the next project managers. So we are doing a 
lot on that front. Again, training. If an American worker wants 
a job, we will train you. We will onboard you for 6 weeks. We 
will pay you good. We will provide you benefits. We will 
provide health insurance, 401(k). You know, we will do 
everything we can for an American worker. We just do not get 
the applicants. And we spend more money advertising for 
employees than we do for customers. We do not advertise for 
customers. Why would you when your backlog is 12 weeks?
    Mr. BALDERSON. Okay. All right. Well, thank you. I look 
forward to working with you.
    Mr. Chairman, I apologize for going over.
    Mr. EVANS. Thank you. Thank the gentleman.
    The next person is from the great state of Texas, Mr. Mark 
Veasey.
    Mr. VEASEY. Thank you, Mr. Chairman.
    I wanted to ask a question elated to what Mr. Sabino 
mentioned before, and that is the population rate, the birth 
rate that has happened in our country. Nobody is really talking 
about that that often, particularly when the debates around 
immigration come up. And so I wanted to ask anybody on the 
panel what sort of detail have you looked into that issue? I 
mean, I think that one of the things that has astonished me 
that I think people miss was that during the housing bust that 
happened in the early 2000s, the Mexican-American birth rate 
plummeted to below the 2.1 that you need in order to repopulate 
your society. And right now there have been a lot of 
discussions in Russia, for instance, about their population 
decline that they have had there, and they have done everything 
they could to try to encourage people to have more kids. It is 
not working. I think that everyone has probably seen the news 
stories about Japan, about how they actually sell more adult 
diapers in Japan than they do kids' diapers now. And that could 
happen here if we do not really start looking at this issue 
from all different facets.
    So if you could just sort of touch on that a little bit 
more, anybody on the panel.
    Mr. Griswold? Please.
    Mr. GRISWOLD. Congressman, thank you. That is a huge issue. 
Our problem is not as severe as in Japan and Russia, but we do 
have a problem. The Pew Research Center recently came out with 
a report that showed that the pool of native-born Americans who 
have native-born parents, that is actually shrinking and will 
shrink by 8 million over the next 15 years or so. So any growth 
that we have in our population is going to be from immigrants, 
first and second generation immigrants.
    Another recent study by Moody Analytics found that 80 
percent of U.S. counties have shrinking working-age 
populations. And it is especially intense in a lot of 
Midwestern states and New England. Not so much Texas, but so we 
literally have a shrinking pool of native-born workers in this 
country, and we need immigrants if our businesses are going to 
be able to continue to expand and invest and meet the demands 
of customers here in the United States and around the world.
    Mr. VEASEY. I think that you are absolutely right.
    Mr. Sabino, I wanted to ask you, because you talked about 
the stigma and parents sort of moving their kids away from 
certain trades and jobs. Have you had a chance to like look at 
the German model? And I do not like everything about that model 
because I do not really necessarily like the tracking, but it 
seems like with the pay discrepancies that they have there, 
they are much smaller there than they are here. So a lot of 
people think that that is one of the reasons why the trades do 
not have as much of a stigma in Germany as they do here. Have 
you looked at pay scale? And you know, when we saw a decline in 
labor unions, for instance, in this country, we saw a big 
decline in what people brought home in their checks at the end 
of the week or at the end of the month. Have you like looked at 
the pay discrepancies and how that sort of affects how people 
feel about these jobs?
    Mr. SABINO. Sure. Sure. To the German model, we actually 
went to the Roof and Timber Show in Germany last year and we 
have had a chance to meet with our German counterparts. So I 
will say the German model is very successful. Germany, roofing 
is the number one recognized trade in Germany. They are the 
most respected trade. They also start roofing at the age of 14. 
They start early. The current technical education starts very 
early there.
    In terms of the pay discrepancies, we are seeing wages go 
up across the board. I am not seeing a huge gap in pay. We are 
seeing wages go up, so.
    Mr. VEASEY. There is one good book, if you have a chance, 
there are several good books out, but there is a book that was 
written by two professors in the Northeast. It is called 
Rescaling America: Learning to Labor in the 21st Century. It is 
an outstanding book if you have a chance to read it. But that 
was one of the things that they pointed out was that the white 
collar professions and the blue collar professions in Germany, 
there is much less of a gap between what people bring home at 
the end of the month than there is with the white collar and 
blue collar gap here in America. And so that is something that 
we should definitely look at in the future.
    Mr. SABINO. I will say we do have foreman that make $75,000 
a year or more. So again, it is based on skill. But there are 
great opportunities in the roofing industry.
    Mr. VEASEY. Good. Good. Thank you.
    Mr. Chairman, I yield back.
    Mr. EVANS. Thank the gentleman.
    First, I want to thank all of the witnesses for taking time 
out of your very busy schedules. We really appreciate you 
coming before this particular Committee.
    As I said at the onset, I am glad we are having this 
discussion. Our current immigration system is broken and out of 
sync with the realities of our workforce. Small businesses and 
farmers are unable to make decisions and are left bidding among 
themselves. This is no way of treating our small business 
community. And as we continue this discussion, it is vital that 
we not forget the challenges they face every day.
    I hope this conversation yields thoughtful solutions so 
that the Nation's small employers get the workforce they need 
to thrive and our country continues its long history 
recognizing the contribution immigrants bring to our economy.
    I would ask unanimous consent that members have 5 
legislative days to submit statements and supporting materials 
for the record.
    Without objection, so ordered.
    And if there is no further business to come before this 
Committee, we are adjourned.
    [Whereupon, at 1:16 p.m., the Committee was adjourned.]
                           
                           
                           A P P E N D I X

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
